CERTIFICATE OF SERVICE
No. 19-277
HSBC Holdings PLC, et al. ,

Petitioners,
v.
Irving H. Picard and
Securities Investor Protection Corporation,

Respondents.
I, Kenneth J. Caputo, counsel for Respondent Securities Investor Protection
Corporation and a member of t he Bar of this Court, certify that on October 30, 2019,
I cau sed three copies and an electronic copy of the Brief in Opposition to t he
Petition for a Writ of Certiorari to be served by overnight commercial carrier, and
by email, on the following parties:
THOMAS J. MOLONEY

ROY T. E NGLERT, JR.

Cleary Gottlieb Steen & H amilton
LLP
One Liberty Plaza
New York, NY 10006
tmoloney@cgsh.com
(2 12) 225-2460
Counsel for Petitioners HSBC
Holdings PLC, et al.

Robbins, Russell, Englert, Orseck,
Untereiner & Sauber LLP
2000 K Street, NW, 4th Floor
Washington, D C 20006
renglert@robbinsrussell. com
(202) 775-4503
Counsel for Respondent Ir ving H.
Picard

All parties required to be served have been served.

Securities Investor Protection
Corporation
1667 K Street, NW, Suite 1000
Washington, DC 20006

